   •   The designated security officer for CBIS conducted a self-assessment of the system in
       September 2010.
   •   A contingency plan was developed and tested for CBIS in March 2010 in compliance
       with NIST SP 800-34.

However, we noted the following opportunities for improvement in the CBIS security program:
   •   The CBIS Privacy Impact Assessment (PIA) was not conducted in full compliance with
       the requirements of OPM’s PIA Guide and the Office of Management and Budget
       (OMB) Memorandum M-03-22.
   •   The CBIS POA&M does not contain all known security weaknesses as required by the
       OPM POA&M Guide.
   •   The OIG independently tested 28 of the NIST 800-53 controls for CBIS and found that 7
       of these security controls were not in place during the fieldwork phase of the audit.

In addition to the weaknesses outlined above, we noted a significant deficiency in the Office of
the Chief Financial Officer’s (OCFO) ability to manage segregation of duties within the CBIS
application. The OCFO developed a segregation of duties policy, but the application did not
have the technical settings in place to enforce these rules. In addition, the OCFO indicated that
they did not have a firm understanding of the roles that should be segregated within the
application and that the existing segregation of duties policy was not accurate.




                                                ii
                                                                 Contents
                                                                                                                                               Page

Executive Summary ......................................................................................................................... i
Introduction ......................................................................................................................................1
Background ......................................................................................................................................1
Objectives ........................................................................................................................................1
Scope and Methodology ..................................................................................................................2
Compliance with Laws and Regulations..........................................................................................3
Results ..............................................................................................................................................4
         I. Certification and Accreditation Statement ........................................................................ 4
        II. FIPS 199 Analysis ............................................................................................................ 4
       III. Information System Security Plan.................................................................................... 4
      IV. Risk Assessment............................................................................................................... 5
        V. Independent Security Control Testing.............................................................................. 6
      VI. Security Control Self-Assessment .................................................................................... 6
     VII. Contingency Planning and Contingency Plan Testing ..................................................... 6
   VIII. Privacy Impact Assessment ............................................................................................... 7
      IX. Plan of Action and Milestones Process ............................................................................. 8
       X. NIST SP 800-53 Evaluation .............................................................................................. 9
Major Contributors to this Report ..................................................................................................20
Appendix: Office of the Chief Financial Officer February 8, 2011 response to the draft audit
report, issued January 18, 2011.
                                        Introduction
On December 17, 2002, President Bush signed into law the E-Government Act (P.L. 107-347),
which includes Title III, the Federal Information Security Management Act (FISMA). It requires
(1) annual agency program reviews, (2) annual Inspector General (IG) evaluations, (3) agency
reporting to the Office of Management and Budget (OMB) the results of IG evaluations for
unclassified systems, and (4) an annual OMB report to Congress summarizing the material
received from agencies. In accordance with FISMA, we evaluated the information technology
(IT) security controls related to the Office of Personnel Management’s (OPM) Consolidated
Business Information System (CBIS).

                                        Background
CBIS is one of OPM’s 43 critical IT systems. As such, FISMA requires that the Office of the
Inspector General (OIG) perform an audit of IT security controls of this system, as well as all of
the agency’s systems on a rotating basis.

The Office of the Chief Financial Officer (OCFO) has been designated with ownership of CBIS.
CBIS aids in OPM’s management of the agency’s financial resources. CBIS provides
functionality for OPM’s general ledger, accounts payable, accounts receivable, purchasing,
procurement, budgeting, and other financial resources management. OPM’s Center for Financial
Services within the OCFO is responsible for the CBIS system. The OPM OCFO has retained
Accenture to implement, host, and operate CBIS.

In 2009, the OIG conducted an audit of the system development and implementation of CBIS.
As part of this current audit, we followed up on prior audit recommendations related to CBIS IT
security. One audit recommendation from the 2009 report is reissued in this report (see
Recommendation 1).

We discussed the results of our audit with OCFO representatives at an exit conference.

                                          Objectives
Our objective was to perform an evaluation of security controls for CBIS to ensure that OCFO
officials have implemented IT security policies and procedures in accordance with standards
established by OPM, FISMA, and the National Institute of Standards and Technology (NIST).

OPM’s IT security policies require managers of all major information systems to complete a
series of steps to (1) certify that their system’s information is adequately protected and (2)
authorize the system for operations. The overall audit objective was accomplished by reviewing
the degree to which a variety of security program elements have been implemented for CBIS,
including:
•   Certification and Accreditation Statement;
•   FIPS 199 Analysis;
•   Information System Security Plan;
•   Risk Assessment;
                                                 1
•   Independent Security Control Testing;
•   Security Control Self-Assessment;
•   Contingency Planning and Contingency Plan Testing;
•   Privacy Impact Assessment;
•   Plan of Action and Milestones Process; and
•   NIST Special Publication (SP) 800-53 Security Controls.

                                Scope and Methodology
This performance audit was conducted in accordance with Government Auditing Standards,
issued by the Comptroller General of the United States. Accordingly, the audit included an
evaluation of related policies and procedures, compliance tests, and other auditing procedures
that we considered necessary. The audit covered FISMA compliance efforts of OCFO officials
responsible for CBIS, including IT security controls in place as of January 2011.

We considered the CBIS internal control structure in planning our audit procedures. These
procedures were mainly substantive in nature, although we did gain an understanding of
management procedures and controls to the extent necessary to achieve our audit objectives.

To accomplish our objective, we interviewed representatives of OPM’s OCFO office and
Accenture officials with CBIS security responsibilities. We reviewed relevant OPM IT policies
and procedures, federal laws, OMB policies and guidance, and NIST guidance. As appropriate,
we conducted compliance tests to determine the extent to which established controls and
procedures are functioning as required.

Details of the security controls protecting the confidentiality, integrity, and availability of CBIS
are located in the “Results” section of this report. Since our audit would not necessarily disclose
all significant matters in the internal control structure, we do not express an opinion on CBIS’s
system of internal controls taken as a whole.

The criteria used in conducting this audit include:

•   OPM Information Technology Security Policy Volumes 1 and 2;
•   OMB Circular A-130, Appendix III, Security of Federal Automated Information Resources;
•   E-Government Act of 2002 (P.L. 107-347), Title III, Federal Information Security
    Management Act of 2002;
•   NIST SP 800-12, An Introduction to Computer Security;
•   NIST SP 800-18 Revision 1, Guide for Developing Security Plans for Federal Information
    Systems;
•   NIST SP 800-30, Risk Management Guide for Information Technology Systems;
•   NIST SP 800-34, Contingency Planning Guide for Information Technology Systems;
•   NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal
    Information Systems;
•   NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
    Systems;

                                                 2
•   NIST SP 800-60 Volume II, Guide for Mapping Types of Information and Information
    Systems to Security Categories;
•   Federal Information Processing Standard Publication 199, Standards for Security
    Categorization of Federal Information and Information Systems; and
•   Other criteria as appropriate.

In conducting the audit, we relied to varying degrees on computer-generated data. Due to time
constraints, we did not verify the reliability of the data generated by the various information
systems involved. However, nothing came to our attention during our audit testing utilizing the
computer-generated data to cause us to doubt its reliability. We believe that the data was
sufficient to achieve the audit objectives. Except as noted above, the audit was conducted in
accordance with generally accepted government auditing standards issued by the Comptroller
General of the United States.

The audit was performed by the OPM Office of the Inspector General, as established by the
Inspector General Act of 1978, as amended. The audit was conducted from November 2010
through January 2011 in OPM’s Washington, D.C. office.

                    Compliance with Laws and Regulations
In conducting the audit, we performed tests to determine whether OCFO’s management of CBIS
is consistent with applicable standards. Nothing came to the OIG’s attention during this review
to indicate that the OCFO is in violation of relevant laws and regulations.




                                               3
                                              Results
 I. Certification and Accreditation Statement
    A security certification and accreditation (C&A) of CBIS was completed in September 2009.

    NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal
    Information Systems, provides guidance to federal agencies in meeting security accreditation
    requirements. The CBIS C&A appears to have been conducted in compliance with NIST
    guidance.

    The U.S. Department of Transportation’s Enterprise Service Center (ESC) was contracted by
    the OCFO to prepare the C&A package for CBIS. OPM’s Senior Agency Information
    Security Officer reviewed the CBIS C&A package and signed the system’s certification
    package on September 17, 2009. The system’s Designated Accrediting Authority (OPM’s
    Chief Information Officer) signed the accreditation statement and authorized the operation of
    the system on September 17, 2009.

II. FIPS 199 Analysis
    Federal Information Processing Standards (FIPS) Publication 199, Standards for Security
    Categorization of Federal Information and Information Systems, requires federal agencies to
    categorize all federal information and information systems in order to provide appropriate
    levels of information security according to a range of risk levels.

    NIST SP 800-60 Volume I, Guide for Mapping Types of Information and Information
    Systems to Security Categories, provides an overview of the security objectives and impact
    levels identified in FIPS Publication 199.

    The CBIS security categorization analysis categorizes information processed by the system
    and its corresponding potential impacts on confidentiality, integrity, and availability. CBIS
    is categorized with a moderate impact level for confidentiality, integrity, and availability,
    resulting in an overall categorization of moderate.

    The security categorization of CBIS appears to be consistent with the guidance of FIPS 199
    and NIST SP 800-60, and the OIG agrees with the categorization of moderate.

III. Information System Security Plan
    The completion of an information system security plan (ISSP) is a requirement of OMB
    Circular A-130 Appendix III, Security of Federal Automated Information Resources. In
    order to assist agencies in establishing a standardized approach to developing an ISSP, NIST
    developed SP 800-18 Revision 1, Guide for Developing Security Plans for Federal
    Information Systems.

    The ISSP for CBIS was created using the template outlined in NIST SP 800-18. The
    template requires that the following elements be documented within the ISSP:

                                                   4
    •    System Name and Identifier;
    •    System Categorization;
    •    System Owner;
    •    Authorizing Official;
    •    Other Designated Contacts;
    •    Assignment of Security Responsibility;
    •    System Operational Status;
    •    Information System Type;
    •    General Description/Purpose;
    •    System Environment;
    •    System Interconnection/Information Sharing;
    •    Laws, Regulations, and Policies Affecting the System;
    •    Minimum Security Controls;
    •    Plan Completion Date; and
    •    Plan Approval Date.

    The ISSP for CBIS was prepared in September 2009 and revised in August of 2010 in
    accordance with the format and methodology outlined in NIST SP 800-18. The CBIS
    ISSP contains the majority of the elements outlined by NIST SP 800-53 Revision 3 and NIST
    SP 800-18 Revision 1.

IV. Risk Assessment
    A risk management methodology focused on protecting core business operations and
    processes is a key component of an efficient IT security program. A risk assessment is used
    as a tool to identify security threats, vulnerabilities, potential impacts, and probability of
    occurrence. In addition, a risk assessment is used to evaluate the effectiveness of security
    policies and recommend countermeasures to ensure adequate protection of information
    technology resources.

    As part of the C&A process, ESC conducted a risk assessment of CBIS in September 2009
    and evaluated the risk of each vulnerability in accordance with NIST SP 800-30 standards.
    NIST SP 800-30 offers a nine step systematic approach to conducting a risk assessment that
    includes: (1) system characterization; (2) threat identification; (3) vulnerability identification;
    (4) control analysis; (5) likelihood determination; (6) impact analysis; (7) risk determination;
    (8) control recommendation; and (9) result documentation. Fifty-three vulnerabilities were
    identified during this assessment, and the following was documented for each one:
    a.   vulnerability description;
    b.   threat source;
    c.   existing controls;
    d.   likelihood, impact, and risk rating; and
    e.   control recommendations.

    Each of these vulnerabilities was appropriately added to the CBIS Plan of Action and
    Milestones (POA&M) for tracking purposes (see section IX below).


                                                    5
 V. Independent Security Control Testing
     A security test and evaluation (ST&E) was completed for CBIS as a part of the system’s
     C&A process in September 2009. The ST&E was conducted by ESC, an OPM contractor
     that was operating independently from the OCFO.

     The OIG reviewed the controls tested by ESC to ensure that they included a review of the
     appropriate management, operational, and technical controls required for a system with a
     “moderate” security categorization according to NIST SP 800-53 Revision 3, Recommended
     Security Controls for Federal Information Systems.

     The ST&E labeled each security control as common (inherited from OPM’s IT
     infrastructure), system-specific, or hybrid. The system specific and hybrid controls were
     tested as part of this ST&E, whereas the testing of common controls is the responsibility of
     OPM’s Office of the Chief Information Officer (OCIO).

     ESC tested 171 controls and determined that 19 controls were not adequately implemented.
     ESC presented a copy of the evaluation results to the OCFO, and each of the identified
     weaknesses was appropriately incorporated into the CBIS POA&M for tracking purposes.

VI. Security Control Self-Assessment
     FISMA requires that the IT security controls of each major application owned by a federal
     agency be tested on an annual basis. In the years that an independent ST&E is not being
     conducted on a system, the system’s owner must conduct an internal self-assessment of
     security controls.

     The designated security officer for CBIS conducted a self-assessment of the system in
     September 2010. The assessment included a review of the relevant management,
     operational, and technical security controls outlined in NIST SP 800-53 Revision 3.
     Although the OCFO did not identify any weaknesses in the 150 security controls that were
     tested, an OIG test of security controls indicated that system weaknesses do exist (see section
     X, below).

VII. Contingency Planning and Contingency Plan Testing
     NIST SP 800-34, Contingency Planning Guide for IT Systems, states that effective
     contingency planning, execution, and testing are essential to mitigate the risk of system and
     service unavailability. The OPM IT Security and Privacy Policy Volume 2 requires that
     OPM general support systems and major applications have viable and logical disaster
     recovery and contingency plans, and that these plans be annually reviewed, tested, and
     updated.




                                                    6
      Contingency Plan
      The CBIS Disaster Recovery (DR) plan documents the functions, operations, and resources
      necessary to restore and resume computer operations when unexpected events or disasters
      occur. The CBIS DR plan is reviewed and updated annually and contains the majority of
      elements recommended by NIST SP 800-34 guidelines, including:
      •   System background information;
      •   Concept of operations;
      •   Notification/activation phase;
      •   Recovery operations; and
      •   Procedures to return to normal operations.

      Contingency Plan Test
      NIST SP 800-34, Contingency Planning Guide for Information Technology, provides
      guidance for conducting and documenting contingency plan testing. Genuine Contingency
      plan testing is a critical element of a viable disaster response capability.

      In March of 2010, the OCFO conducted its annual disaster recovery table top test. The test
      involved discussing the steps of restoring all mission critical functions after a temporary
      electrical outage. The documentation resulting from the CBIS DR test contains the majority
      of the items mentioned in the NIST guide including the scope, objectives, participants, and
      logistics.

      The disaster recovery test summary documented potential problems that were discovered
      during or at the conclusion of the test. However, one recommendation identified during the
      2010 DR test has not been added to the CBIS POA&M for tracking purposes (see section IX
      below).

VIII. Privacy Impact Assessment
      The E-Government Act of 2002 requires agencies to perform a screening or Privacy
      Threshold Analysis (PTA) of federal information systems to determine if a Privacy
      Impact Assessment (PIA) is required for that system.

      OMB Memorandum M-03-22 outlines the necessary components of a PIA. A PIA is used to
      ensure that no collection, storage, access, use, or dissemination of personally identifiable
      information occurs that is not needed or authorized. The purpose of the assessment is to
      evaluate any vulnerabilities of privacy in information systems and to document any privacy
      issues that have been identified and addressed.

      The OCFO completed the PTA of CBIS and determined that a PIA was required for this
      system. A PIA was conducted for CBIS in May 2009. Although the CBIS PIA contained the
      majority of the elements of M-03-22, it did not address several requirements applicable to
      major information systems, including:



                                                       7
    •   The consequences of collection and flow of information;
    •   The alternatives to collection and handling as designed;
    •   The appropriate measures to mitigate risks identified for each alternative; and
    •   The rationale for the final design choice or business process.

    This issue was originally identified during the OIG’s 2009 audit of CBIS.

    Recommendation 1 (Roll-forward from OIG Report 4A-CI-00-09-066 Recommendation
    4)
    We continue to recommend that all OMB Memorandum 03-22 requirements are incorporated
    into the CBIS PIA.

    OCFO- FSM Response:
    “We concur with the OIG recommendation. We have addressed the citations that were
    noted in our recent CBIS PIA. Currently the PIA is under review by the CIO IT Security
    Office and based upon their approval or proposed actions, we will forward the revised
    version of [the] CBIS PIA to your office for review no later than April 30, 2011.”

    OIG Reply:
    We acknowledge the steps that OCFO has taken to update the CBIS PIA; no further action is
    required.

IX. Plan of Action and Milestones Process
    A POA&M is a tool used to assist agencies in identifying, assessing, prioritizing, and
    monitoring the progress of corrective efforts for IT security weaknesses. OPM has
    implemented an agency-wide POA&M process to help track known IT security weaknesses
    associated with the agency’s information systems.

    The OIG evaluated the CBIS POA&M and verified that it follows the format of OPM’s
    template, and has been routinely submitted to the OCIO for evaluation. However, we found
    that security weaknesses identified during CBIS DR testing and reviews conducted by the
    OIG and KPMG have not been added to the CBIS POA&M.

    Recommendation 2
    We recommend that the OCFO promptly update the CBIS POA&M to include all known
    security weaknesses.

    OCFO- FSM Response:
    “We concur with the OIG recommendation and our objective is to develop a centralized
    toolset and/or utilize CIO’s                               to monitor and track all
    POA&M’s/CAP regardless of the origin of the finding or recommendation. ….
    We also concur that … four (4) POA&M’s from the CBIS Disaster Recovery (DR) testing
    were omitted from the POA&M’s listing but it is being tracked and monitored under the A-
                                                   8
   123 review process. After this review is completed (currently by the Policy and Internal
   Controls group), we will submit to your attention no later than April 30, 2011.”

   OIG Reply:
   Although the OCFO uses a variety of tools to track CBIS security weakness, FISMA requires
   Federal agencies track all weaknesses using the standard POA&M template developed by the
   Office of Management and Budget. Use of the standardized POA&M template allows the
   OCIO to track security weaknesses for all of the agency’s information systems.

   In order to adequately address this recommendation the OCFO must add all known security
   weaknesses to the CBIS POA&M in addition to any other tracking tools used by the program
   office.

X. NIST SP 800-53 Evaluation
   NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
   Systems, provides guidance for implementing a variety of security controls for information
   systems supporting the federal government. As part of this audit, the OIG determined
   whether a subset of these controls had been adequately implemented for CBIS, including:

   •   AC-2 Account Management                        •   IA-2 Identification and Authentication
   •   AC-4 Information Flow Enforcement              •   IA-5 Authenticator Management
   •   AC-7 Unsuccessful Login Attempts               •   IR-6 Incident Reporting
   •   AC-8 System Use Notification                   •   MP-6 Media Sanitization and Disposal
   •   AC-11 Session Lock                             •   CP-9 Information System Backup
   •   AC-13 Supervision and Review – Access          •   PE-2 Physical Access Authorization
       Control
   •   AT-3 Security Training                         •   PL-4 Rules of Behavior
   •   AU-2 Auditable Events                          •   PS-4 Personnel Termination
   •   AU-3 Content of Audit Records                  •   PS-7 Third-Party Personnel Security
   •   AU-6 Audit Review, Analysis, Reporting         •   RA-5 Vulnerability Scanning
   •   CA-3 Information System Connections            •   SA-4 Acquisitions
   •   CM-2 Baseline Configuration                    •   SC-10 Network Disconnect
   •   CM-6 Configuration Settings                    •   SI-10 Information Accuracy, Completeness,
                                                          Validity, and Authenticity
   •   CP-6 Alternate Storage Site                    •   SI-11 Error Handling

   These controls were evaluated by interviewing individuals with CBIS security
   responsibilities, reviewing documentation and system screenshots, viewing
   demonstrations of system capabilities, and conducting tests directly on the system.

   Although it appears that the majority of NIST SP 800-53 security controls have been
   successfully implemented for CBIS, several tested controls were not fully satisfied.



                                                 9
a) (AC-2) Account Management




  NIST SP 800-53 Control AC-2 requires an organization to review, disable, and
  remove user accounts when necessary.




  Recommendation 3
  We recommend that the OCFO


  OCFO -FSM Response:
  “We concur with the [OIG] recommendation and are currently conducting our

         We also acknowledge

                                                                              A
  revised account management guide, to include these refined policies, will be
  forwarded to OIG no later than April 30, 2011.”

  “Even though we communicate the risk of
                                                                         . We
  recommend that for that situation we will identify a policy and procedures to
  establish a waiver that [transfers] the risk to the program offices.”

  OIG Reply:
  We acknowledge the steps taken by the OCFO to address this issue. In order to fully
  close this audit recommendation, we recommend that the OCFO provide IOC with
  evidence that                                             or that the risk was
  formally accepted by senior management from that user’s program office.

  Recommendation 4
  We recommend that the OCFO


  OCFO-FSM Response:
  “We concur with the [OIG] recommendation and are currently conducting our



                                         10
                      A revised account management guide, to include these refined
   policies, will be forwarded to OIG no later than April 30, 2011.”

   OIG Reply:
   As part of the audit resolution process, we recommend that the OCFO provide IOC
   with evidence                                                    .

   Recommendation 5
   We recommend that the OCFO develop and implement a process to routinely audit


   OCFO-FSM Response:
   “We concur with the [OIG] recommendation and we will continue to revise our
   CBIS account management guide to include the OIG audit recommendations,
   system enhancements and policies and procedures to improve the security
   management processes. More specifically, we will routinely review
                                             We acknowledge that the security oversight
   for CBIS is                                 and we have made a recommendation to
   OCFO management to invest into a product similar to
                     that provides capabilities to assess and alert in cases where
   security violations have occurred. In the interim, we have developed reports that
   allow OPM Program Office [RMOs] and the CBIS security team a means to
   effectively monitor                                  .

   We recommend CBIS users and supervisors submit                              directly to
   their Program Office RMO to obtain their approval and assist them in monitoring
   and tracking                                     A revised account management
   guide, [including] these refined policies, will be forwarded to OIG no later than
   April 30, 2011.”

   OIG Reply:
   As part of the audit resolution process, we recommend that the OCFO provide IOC
   with evidence that it has implemented a process to routinely audit
           s.

b) (AC-5) Segregation of Duties Issue
   The OCFO developed a policy that describes specific user roles that cannot be
   assigned to a single individual in conjunction with other roles due to segregation of
   duty conflicts (e.g., one user having both payables manager and receivables manager
   roles). We reviewed the active roles of all current CBIS users and determined that
   191 users had roles that violated the segregation of duties policy.


                                           11
NIST SP 800-53 Control AC-5 states that system owners must separate duties of
individuals as necessary to prevent malevolent activity without collusion. Failure to
implement adequate separation of duties increases the risk that malicious activity by
system users remains undetected.

The OCFO informed the OIG that several of the users that have segregation of duties
issues have a business need to have conflicting roles. If this is the case, then the
CBIS segregation of duties policy is not accurate, further indicating that the OCFO
does not have adequate controls regarding segregation of duties. We consider this
weakness to be a significant deficiency in CBIS’s IT security controls.

Recommendation 6
We recommend that the OCFO review (and update if necessary) the CBIS
segregation of duties policy to ensure it accurately reflects business requirements.

OCFO-FSM Response:
“We concur with the [OIG] recommendation and we have refined the CBIS
Segregation of Duties metric table (SoD Metric Table) to be reviewed by OIG. We
are seeking OIG concurrence and approval to use this refined SoD as a basis for
the internal control of user security of reducing the likelihood of fraud by
discouraging collusion. If we receive concurrence, we will advise OPM Program
Office [RMOs] and our security team of the newly refined SoD that will assist them
in validating and executing user access requests accurately.

A revised account management guide, [including] these refined policies, will be
forwarded to OIG no later than April 30, 2011.”

OIG Reply:
We acknowledge the steps the OCFO has taken to refine the CBIS SoD metric table.
However, the OIG is not in a position to approve the implementation of this new
table, as the development of a SoD policy requires a detailed understanding of the
business requirements specific to the application. Furthermore, the OIG is an
independent oversight entity and cannot participate in the development of policies
and procedures of the program offices we audit.

As part of the audit resolution process, we recommend that the OCFO provide IOC
with evidence that it has updated the CBIS segregation of duties policy.

Recommendation 7
We recommend that the OCFO adjust the user roles for the accounts identified as
having segregation of duties violations.




                                         12
OCFO-FSM Response:
“We concur with the [OIG] recommendation and are currently conducting our
semi-annual user account assessment [for] each OPM program office [of] their
CBIS users. Utilizing the SoD Metric Table, we are advising OPM Program Office
[RMOs] where role requests violate security standards and will recommend they re-
assess requested roles based on the SoD.

We are aware that this refined policy will cause some concern within OPM
organizations, so FSM is developing an annual CBIS Security Training Awareness
to reinforce this and all other policy changes on a routine and continual basis. Any
support from OIG that endorses these newly refined policies is appreciated. A
revised account management guide, [including] these refined policies, will be
forwarded to OIG no later than April 30, 2011.”

“FSM assumes the responsibility for administration and execution of user account
management. As such, we will establish a policy allowing a waiver (in extreme
circumstances) to bypass the SoD conflicts. However, this waiver also transfers the
risk to the OPM Program Office to ensure that actions performed within the system
as a result of [the] waiver does not introduce or permit fraudulent transactions and
use.”

OIG Reply:
As part of the audit resolution process, we recommend that the OCFO provide IOC
with evidence that it has adjusted the user roles for the accounts with segregation of
duties violations.

Recommendation 8
We recommend that the OCFO modify the CBIS system so that technical controls are
in place to prevent user accounts from being created with segregation of duties
violations.

OCFO-FSM Response:
“We partially-concur with the [OIG] recommendation. To retrofit this
recommendation would require the purchase of
                                 has the functionality to determine and alert when
security violations occur and to monitor system configurations and security set-ups.
FSM is recommending the purchase of               to CFO leadership for
consideration. Upon approval, it will be forwarded to the CBIS Change Control
Board and the Executive Steering Committee for review and analysis. In the
interim FSM’s Financial Application Management (FAM) Group will continue to
use SoD and other reports defined in our account management guidelines to
monitor and track SoD violations. We will introduce a change request to both the
CCB and then ESC for concurrence no later than April 30, 2011.”


                                         13
     OIG Reply:
     As part of the audit resolution process, we recommend that the OCFO provide IOC
     with evidence that it has implemented technical controls to prevent user accounts
     from being created with segregation of duties violations.

     Recommendation 9
     We recommend that the OCFO implement a process to routinely audit all active user
     accounts to identify accounts that have roles that violate the segregation of duties
     policy.

     OCFO-FSM Response:
     “We concur with the [OIG] recommendation and we are developing security
     incident reports to assist the security team and OPM Program Office [RMOs] in
     conducting more frequent reviews of CBIS user accounts (within their
     organization) and to also alert when those accounts may violate the approved SOD
     Metrics. More specifically, we (the CBIS security team) will routinely review user
     accounts on a quarterly basis and when needed.

     We recommend CBIS users and supervisors submit security access forms directly to
     their Program Office RMO to obtain their approval and assist them in monitoring
     and tracking modifications to user accounts. A revised account management
     guide, [including] these refined policies, will be forwarded to OIG no later than
     April 30, 2011.”

     OIG Reply:
     As part of the audit resolution process we recommend that the OCFO provide IOC
     with evidence that it is routinely auditing CBIS user accounts to identify segregation
     of duties violations.

c)




                                             14
Recommendation 10




OCFO-FSM Response:
“We concur with the [OIG] recommendation.




OIG Reply:




Recommendation 11
We recommend that the appropriate technical modifications be made to CBIS to




                                     15
OCFO-FSM Response:
“We partially-concur with the [OIG] recommendation and




                  FSM is recommending the purchase of          to CFO
leadership for consideration.




OIG Reply:
We acknowledge the fact that


                            nce the           is complete, we recommend that
the OCFO provide IOC with evidence that the


Recommendation 12
We recommend that the OCFO

OCFO-FSM Response:
“We partially-concur with the [OIG] recommendation



                                     16
          1. Current Active users and assigned responsibilities




                            FSM is recommending the purchase of                    to
   CFO leadership for consideration.




   OIG Reply:
   As part of the audit resolution process, we recommend that the OCFO provide IOC
   with evidence indicating that the program office
                                                  discussed in Recommendation 10,
   above.

d) (CM-6) Configuration Settings
   The OIG conducted vulnerability scans of the           databases supporting CBIS
   using                                                   scanning tool. The
   vulnerability scans revealed that the databases contained settings configured in a
   manner not fully compliant with best practices as defined by
        Although the technical details of these settings will not be included in this
   report, the OCFO has been provided with this information.

   NIST SP 800-53 Control CM-6 states that information systems should be configured
   in a manner that reflect the most restrictive mode consistent with operational
   requirements.

   Recommendation 13
   We recommend that the OCFO evaluate the potential configuration weaknesses
   identified by the OIG and, if necessary, make the appropriate technical modifications.


                                           17
     OCFO-FSM Response:
     “We do not concur with the [OIG] recommendation. The results of the scan
     conducted by the OIG were anticipated and expectedly applicable to the CBIS
     database configuration. The scan conducted by OIG identified [items] … required
     for (and support) the CBIS [application’s] day-to-day operations. … As such, we
     believe we are in compliance with NIST SP 800-53 Control CM-6 as the system is
     configured in a manner that restricts access based on the operational requirement
     … to support CBIS operations.”

     OIG Reply:
     We acknowledge the fact that the configuration settings questioned are required to
     support CBIS day-to-day operations. No further action is required.

e)




     Recommendation 14
     We recommend that the OCFO


     OCFO-FSM Response:
     “We concur with the [OIG] recommendation and are currently conducting our




     FAM will ensure that the processes

                    A revised account management guide, [including] these refined
     policies, will be forwarded to OIG no later than April 30, 2011.”

                                            18
OIG Reply:
As part of the audit resolution process, we recommend that the OCFO provide IOC
with evidence indicating


Recommendation 15
We recommend that the OCFO implement a process


Recommendation 16
We recommend that the OCFO implement a procedure to

                                                                               .

OCFO-FSM Response:
“We concur with the [OIG] recommendation. FAM will request that CIO provides
the CBIS security team

              Upon implementation of this process, we will notify the OPM
Program Office [RMOs] that they


We will forward a revised account management guide that includes these refined
policies for review no later than April 30, 2011.”

OIG Reply:
We agree that the OCFO’s plan to use the

                       owever, the intent of Recommendations 15 and 16 is to
implement both




                                      19
                            Major Contributors to this Report
This audit report was prepared by the U.S. Office of Personnel Management, Office of Inspector
General, Information Systems Audits Group. The following individuals participated in the audit
and the preparation of this report:

•                  , Group Chief
•                    , Senior Team Leader
•               , Auditor In Charge




                                              20
